CERTIFICATE OF SERVICE
Pursuant to this Court’s April 15, 2020 Order,
I HEREBY CERTIFY that on May 19, 2020, an
original of Petitioners Writ of Certiorari was mailed
via U.S. first-class mail, postage prepaid, to the
Clerk of the United States Supreme Court and a
correct copy was mailed via U.S. postal “priority
mail” to opposing counsel at the following address:
Martha Gale, Esquire
Supreme Court of Pennsylvania
Administrative Office of
Pennsylvania Courts
1515 Market Street
Suite 1414
Philadelphia, PA 19102
(215) 560-6300

Clerk, Supreme Court
of the United States
1 First Street, NE
Washington, DC
20543

I declare under penalty of perjury that the
foregoing is true and correct.

Executed on May 19, 2020
2* -

E. Thomas Scarborough III, pro se

Check enclosed- $300 payable to Clerk, U.S. Supreme Court

